No. 20AIN THE

Supreme £ourt of the lniteb States
DONALD J. TRUMP; THE 'TRUMP ORGANIZATION, INC.; 'TRUMP
ORGANIZATION LLC; THE TRUMP CORPORATION; DJT HOLDINGS LLC; THE
DONALD J. TRUMP REVOCABLE TRUST; TRUMP OLD POST OFFICE LLC
V.

MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES

DONALD J. TRUMP; DONALD J. 'TRUMP, JR.; ERIC TRUMP; IVANKA 'TRUMP;
DONALD J. TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.;
TRUMP ORGANIZATION LLC; DJT HOLDINGS LLC; DJT MANAGING
MEMBER LLC; TRUMP ACQUISITION LLC; TRUMP ACQUISITION, CORP.
V.

DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION;
COMMITTEE ON FINANCIAL SERVICES OF THE U.S. HOUSE OF
REPRESENTATIVES; PERMANENT SELECT COMMITTEE ON
INTELLIGENCE OF THE U.S. HOUSE OF REPRESENTATIVES

On Writs of Certiorari to the United States Courts of Appeals
for the District of Columbia and Second Circuits
AFFIDAVIT OF SERVICE
I, Kate R. Miller, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
On this 13th day of July, 2020, the within Application For Immediate
Issuance Of The Judgments in the above-captioned matters was served upon:

William S. Consovoy
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Jerry D. Bernstein
Inbal P. Garrity
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5000
jbernstein@blankrome.com
igarritv@blankrome.com
Pratik A. Shah
Akin Gump Strauss Hauer & Feld, LLP
2001 K Street N.W.
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
James A. Murphy
Murphy & McGonigle, P.C.
1185 Avenue of the Americas
21st Floor
New York, NY 10036
(212) 880-3968
jmurphy@mmlawus.com
via electronic mail in accordance with this Court's April 15, 2020 Order Regarding
Filings. All parties have consented to service via electronic mail.
All parties required to be served have been served.

2

I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 13th day of July, 2020

ha.t R Mo

Kate R. Miller

Sworn to and subscribed before me this 13th day of July, 2020.

poe ate: (Qr114?1.. # Pages: {_

wwr-Elkpee oar
'

(Stamp or Seal)

3

